TRAIN OPERATIONS AND BUSINESS
MANAGEMENT: Addressing Management Weaknesses Is
Key to Enhancing the Americans with Disabilities Program




                               Audit Report OIG-A-2014-010 | August 4, 2014
This page intentionally left blank.
    NATIONAL RAILROAD
    PASSENGER CORPORATION




                                REPORT HIGHLIGHTS
Why We Did This Review              TRAIN OPERATIONS AND BUSINESS MANAGEMENT: Addressing
The Americans with                 Management Weaknesses Is Key to Enhancing the Americans with Disabilities
Disabilities Act (ADA)                                            Program
became law in 1990, requiring                 (Audit Report OIG-A-2014-010, August 4, 2014)
that intercity rail stations be    What We Found
made accessible to persons         Over the last two years, the ADA program made limited progress
with disabilities by July 26,      achieving its goals, largely because of the lack of an effective program
2010. In September 2011, we        management structure and the absence of a written strategic plan
reported that only 48 of the       establishing a vision, goals, and objectives, including estimates of costs
482 stations Amtrak serves         and a timeframe for program completion. These weaknesses were
(10 percent) were ADA-             similar to the ones we identified previously, which resulted from the
compliant. During FY 2012          lack of program accountability and decision-making authority. For the
and FY 2013, Amtrak spent          program in FY 2012 and FY 2013, we noted the following:
about $100 million of ADA
program funds.                           Program accomplishments included completing numerous
                                          property surveys and facility assessments, and making three
We decided to follow up on                more stations compliant.
our prior work because of
Amtrak’s noncompliance                   More than $46 million of program funds (more than 46 percent)
with the ADA legislation, the             was spent on program management activities; however, best
negative impact on
                                          practices suggest that 30 percent is typically spent on such
passengers with disabilities,             activities.
and the financial risk
associated with ADA-related              Approximately $6.5 million was spent on designs for projects
litigation.                               that are not included in current construction plans.
During FY 2012 and FY 2013,              An undetermined amount of ADA funds was spent on state-of-
the company’s goal was to                 good-repair work, not ADA-compliance work.
make stations that Amtrak
has sole responsibility for        More recently, changes to the program’s goals in FY 2014 have not been
ADA-compliant. For FY 2014,        set forth in a written strategic plan that can be used to monitor progress
the goal changed to focus on       and ensure accountability.
stations with significant
accessibility deficiencies. Our    If the weaknesses persist, the program is likely to continue to see only
reporting objective is to assess   limited progress in achieving its goals.
the progress in achieving the
ADA program goals and
addressing the management          Recommendations
control issues raised in our       We recommended and the President and Chief Executive Officer
previous report.                   agreed to take actions to help improve the effectiveness of the ADA
                                   program’s management. Actions agreed to include, making program
You can find the full report at    structure changes and developing a strategic plan to guide program
www.amtrakoig.gov/reading-room     implementation.
This page intentionally left blank.
      NATIONAL RAILROAD
      PASSENGER CORPORATION




Memorandum
To:             Joseph Boardman
                President and Chief Executive Officer

From:           Tom Howard
                Inspector General

Date:           August 4, 2014

Subject:        Train Operations and Business Management: Addressing Management
                Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                (Audit Report OIG-A-2014-010)

In 1990, the Americans with Disabilities Act (ADA) became law; it required that
intercity rail stations be made accessible to persons with disabilities by July 26, 2010.
In September 2011, we reported that Amtrak had not met that requirement.1
Specifically, the company reported that only 48 of the 482 stations it serves (10 percent)
were ADA-compliant. In Fiscal Year (FY) 2012 and FY 2013, Amtrak spent about
$50 million per year for ADA projects.2 We decided to follow up on Amtrak’s progress
achieving its ADA program goals because of the company’s noncompliance with the
ADA legislation, the negative impact on passengers with disabilities, and the financial
risk associated with ADA litigation.




1 Americans with Disabilities Act: Leadership Needed to Help Ensure That Stations Served by Amtrak Are
Compliant, 109-2010, September 29, 2011.
2 In FY 2012 and FY 2013, congressional committees directed Amtrak to spend at least $50 million at

stations it serves to bring them into compliance with ADA.
                                                                                                         2
                              Amtrak Office of Inspector General
          Train Operations and Business Management: Addressing Management
         Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                        Audit Report OIG-A-2014-010, August 4, 2014

An executive oversight committee (which we refer to as the ADA management team)
provides senior management oversight of the ADA program.3 With members from six
departments, the ADA management team is chaired by the Vice President, Government
Affairs and Corporate Communications. A working group coordinates the activities of
the various departments involved in the ADA program; the group reports to the ADA
management team. The ADA program director chairs the working group and reports to
the Vice President, Government Affairs and Corporate Communications.

Our reporting objective is to assess the progress toward achieving the ADA program
goals and to address the management control issues raised in our previous report.
During FY 2012 and FY 2013, the primary program goal was to make locations ADA-
compliant for which Amtrak has sole responsibility for the station, platform, and
parking structure. For FY 2014, the ADA management team approved a new program
goal that focuses on addressing stations with significant accessibility deficiencies. 4 For a
discussion of our audit scope and methodology, see Appendix A.

PROGRAM CONTINUES TO LACK CLEAR LINES OF
ACCOUNTABILITY AND AUTHORITY, AND A STRATEGIC
PLAN
In September 2011, we reported that the limited progress in making stations ADA-
compliant was largely attributable to the ADA program’s fragmented management
structure, which lacked clear lines of authority, responsibility, and accountability. Since
that time, there have been some improvements in program management, but the
program continues to lack clear lines of accountability and authority within the
program management structure. It also lacks a documented strategic vision and long-
term plan for addressing ADA compliance. Progress was also slowed by determining
how to implement the Department of Transportation’s September 2011 level boarding



3 The members of the committee are the Vice President, Government Affairs and Corporate
Communications; Vice President, Operations; Vice President, Northeast Corridor Infrastructure and
Investment Development; General Counsel and Corporate Secretary; Chief Financial Officer; and Chief
Marketing Officer.
4 These deficiencies include barriers that prevent passengers with disabilities from boarding a train,

accessing a station, and using the station restrooms.
                                                                                                        3
                              Amtrak Office of Inspector General
          Train Operations and Business Management: Addressing Management
         Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                        Audit Report OIG-A-2014-010, August 4, 2014

rule.5 These program management weaknesses and a recent management change in the
program’s focus have contributed to the inefficiencies and limited progress discussed in
this report.

Lack of Accountability and Authority Contributes to Program
Management Inefficiencies
In our September 2011 report, we made several recommendations to address the
fragmented program management and lack of accountability. For example, we
recommended that ADA program management be assigned to the official with the most
ADA program components. The President and Chief Executive Officer disagreed with
this recommendation, but noted that this decision would be reevaluated after
completing a review of how the company would be aligned to support the new
strategic plan. That reevaluation has not occurred.

The ADA management team continues to lack clear accountability because the chair of
the team has not been assigned clear decision-making authority. Instead, the company
continues to use a matrix program management organization for the ADA program, as
shown in Figure 1.




5In September 2011, the U.S. Department of Transportation amended its regulations to require passenger
rail providers, such as Amtrak, (1) to ensure that, at new and altered station platforms, passengers with
disabilities can board and de-board from any accessible car of the train, and (2) to provide level-entry
boarding where those platforms are adjacent to tracks used only by passenger rail. See Federal Register,
Vol. 76 No. 181, September 19, 2011.
                                                                                                       4
                              Amtrak Office of Inspector General
          Train Operations and Business Management: Addressing Management
         Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                        Audit Report OIG-A-2014-010, August 4, 2014

        Figure 1. ADA Program Management Oversight and Responsibilities6




In October 2013, the ADA management team adopted a charter that designated the Vice
President, Government Affairs and Corporate Communications, as the chair. However,
the charter does not specifically designate accountability, assign oversight
responsibility, or provide the chair authority to act on behalf of Amtrak. According to
best practices in project management, a charter should clearly define the responsibilities
and authority levels of assigned leadership. Amtrak recently recognized the need for
designating such an official to be accountable for the executive oversight committee of
the Hudson Yards Concrete Casing project.7 The charter for this committee gives the
chair the authority to act on behalf of Amtrak in negotiations and to approve and
authorize documents.


6The ADA program also includes a contract to design a level boarding solution.
7This committee has responsibility for overseeing a project to construct a concrete casing that will
accommodate two new rail tunnels into Penn Station in New York City.
                                                                                            5
                             Amtrak Office of Inspector General
         Train Operations and Business Management: Addressing Management
        Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                       Audit Report OIG-A-2014-010, August 4, 2014

Working Group Has Been Ineffective. The ADA working group of staff from nine
departments coordinates the activities of the various departments involved in
implementing the ADA program. The group, however, does not have a charter that
defines its membership, responsibilities, or meeting protocols. The working group
started maintaining meeting minutes in January 2013.

Two members of the ADA management team stated that the working group is not
functioning very well, which has resulted in the need to elevate all issues to the
management team for a decision. For example, the General Counsel noted that the
working group could not reach an agreement on whether ADA funds should be used to
paint white stripes for four general parking spaces, in addition to painting blue stripes
for two accessible ADA-reserved parking spaces. As a result, the issue was elevated to
the ADA management team. Furthermore, without records of the working group votes,
the ADA management team does not know whether members generally agreed or were
split on an issue, according to the Vice President, Northeast Corridor Investment and
Infrastructure Development. He noted that this information would be very helpful in
the deliberations of the ADA management team. Best practices in project management
among private and public organizations suggest that establishing a charter that
formally authorizes and guides project management can help avoid gaps in project
accountability and oversight.

ADA Program Director Lacks Authority. In September 2011, Amtrak hired an ADA
program director to be responsible for collaborating among Amtrak departments to
develop and implement policy and procedures to respond to ADA requirements. The
program director has the responsibility to direct the ADA station development process
and also to collaborate with internal and external stakeholders to assist in the delivery
of construction projects that will result in ADA-compliant station facilities.

Notwithstanding this responsibility, the program director did not have responsibility to
select projects to be funded until FY 2015. The Engineering department selected projects
to fund in FY 2012 and FY 2013, with the approval of the ADA management team.
Additionally, the ADA program director’s ability to carry out his responsibilities has
been affected by the frequently changing priorities and goals of the ADA program and
the lack of overall direction from the ADA management team.
                                                                                                               6
                              Amtrak Office of Inspector General
          Train Operations and Business Management: Addressing Management
         Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                        Audit Report OIG-A-2014-010, August 4, 2014

Lack of a Strategic Plan Hinders Program Implementation
The ADA management team has no long-term strategic plan for the ADA program that
provides a strategy, goals, funding levels, and a timeframe for achieving full ADA
compliance. Several senior management officials responsible for implementing the
ADA program stated that they have been uncertain at times about the priorities and
plans for the program. For example, one manager stated that the program has been
unclear, has no direction, and needs a change. Best practices of private and government
entities suggest that strategic planning is essential for effective outcomes. Strategic
planning helps an organization effectively align organizational efforts with a single
vision and ensure the efficient use of resources within budget constraints.

In recent years, organizations of the disabled community have publicly expressed their
dissatisfaction with Amtrak’s progress implementing ADA. Officials from the National
Disability Rights Network8 told us in November 2013 that Amtrak had not been
transparent about recent changes to the ADA program, and the officials had no
meetings up to that date with the ADA management team. In October 2013, the
Network issued a report addressing Amtrak’s failure to implement ADA after more
than 23 years.9 The report recommended that Amtrak prioritize and address basic
barriers to accessibility. U.S. Access Board10 officials stated that they also have had
limited interaction with Amtrak officials regarding the company’s ADA program.

The ADA management team recently took steps to improve communication with
organizations representing disabled people. In February 2014, the President and Chief
Executive Officer met with representatives of various organizations to discuss the ADA
program. In April 2014, the Vice President, Government Affairs and Corporate
Communications, and the ADA program director organized a special train from

8 The National Disability Rights Network is a non-profit membership organization that advocates for the
enactment and vigorous enforcement of laws protecting the civil and human rights of people with
disabilities.
9 National Disability Rights Network, All Aboard (Except People with Disabilities): Amtrak’s 23 Years of ADA

Compliance Failure, October 2013.
10 The U.S. Access Board is an independent federal agency that promotes equality for people with

disabilities through leadership in accessible design and the development of accessibility guidelines and
standards for the built environment, transportation, communication, medical diagnostic equipment, and
information technology.
                                                                                                              7
                               Amtrak Office of Inspector General
           Train Operations and Business Management: Addressing Management
          Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                         Audit Report OIG-A-2014-010, August 4, 2014

Washington D.C. to Philadelphia, so passengers who use wheeled mobility devices
could test new bridge plate designs.11 And in May 2014, the Vice President, Government
Affairs and Corporate Communications, met with representatives from the National
Disability Rights Network and other disability rights organizations to discuss progress
and future plans for the ADA program.

Revised Approach to Prioritize Work at Stations with Significant
Accessibility Issues
Starting in FY 2014, the ADA management team adopted a new approach known as the
“pivot plan,” which refocused program priorities. Instead of addressing all ADA
deficiencies at stations where Amtrak has sole ADA responsibility, the team began to
prioritize work system-wide at stations with significant accessibility deficiencies. The
ADA management team decided that, given limited resources, the new approach could
do more to improve system-wide accessibility in a shorter timeframe. For example, the
company will focus its activities on addressing accessibility deficiencies at 17 stations
where passengers who use wheeled mobility devices cannot get on or off the train and
cannot purchase a ticket, and 55 stations with inaccessible restrooms.

As part of the revised program focus, the ADA program director selected projects and
stations for ADA work beginning in FY 2015, using the following criteria:12

        stations that are not available to passengers with a disability
        stations with a path-of-travel deficiency
        stations with an inaccessible building or inaccessible elements inside the station,
         such as a restroom
        stations where level boarding is required and does not exist
        setback-level boarding platforms

No documented plan has been developed to implement this new approach.



11A bridge plate covers the gap between the platform and the train exits.
12To establish the highest priority within that category, stations in each category will be sorted based on
ridership, according to the ADA program director.
                                                                                                              8
                               Amtrak Office of Inspector General
           Train Operations and Business Management: Addressing Management
          Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                         Audit Report OIG-A-2014-010, August 4, 2014

PROGRAM MANAGEMENT WEAKNESSES RESULTED IN
LIMITED PROGRESS, INEFFICIENT SPENDING, AND SLOW
IMPLEMENTATION OF REVISED PROGRAM FOCUS
During FY 2012 and FY 2013, only three additional stations were reported as ADA-
compliant, at a cost of about $7.6 million. Although planning activities—such as
property surveys, facility assessments and project designs—and other construction
activities were completed or begun, a significant portion of the nearly $100 million
spent during the two fiscal years was inefficiently spent. Also, progress implementing
the revised approach in FY 2014 has been slow.

Limited Progress Achieved During FY 2012 and FY 2013
Construction activities were completed at three stations that made them ADA-
compliant13 and at eight other stations that previously had been deemed compliant. By
the end of FY 2013, construction had also begun at eight other stations. In addition,
other ADA-related activities and projects were completed to improve accessibility to
stations for passengers with disabilities, such as initial planning activities and the
installation of mobile lifts and passenger information display systems.

Construction Projects Completed and Started. During FY 2012 and FY 2013, about
$22.7 million was spent on 19 construction projects, including:

        $7.6 million to make three additional stations ADA-compliant
        $7.2 million at eight stations previously reported as ADA-compliant14
        $7.9 million to start construction at eight additional stations

Construction projects were completed at stations in Needles and Redding, California,
and Rensselaer, Indiana. The scope of work included new platforms, station signage,
accessible parking, and restroom improvements. Figure 2 shows some of these
improvements.

13 When construction work is completed, a project management contractor gives Amtrak’s Engineering
department a certificate certifying that the work completed at the station is ADA-compliant.
14 Amtrak, Intercity Passenger Rail Stations Served by Amtrak: A Report on Accessibility and Compliance with the

Americans with Disabilities Act of 1990, February 1, 2009.
                                                                                                        9
                              Amtrak Office of Inspector General
          Train Operations and Business Management: Addressing Management
         Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                        Audit Report OIG-A-2014-010, August 4, 2014

        Figure 2. Examples of ADA Improvements at Two Stations in FY 2013




        Source: Amtrak, Government Affairs and Corporate Communications
        Clockwise, from top left: New platform and accessible parking at Needles, California, and new
        platform, signage, and a relocated mobile lift enclosure at Redding, California.

The Engineering department also reported spending about $7.2 million at eight stations
that previously had been reported ADA-compliant. The expenditures included
(1) about $6.1 million for accessible restrooms, platforms, accessible parking, mobile
lifts, and signage at seven California stations,15 and (2) about $1.1 million to complete a
project to provide accessible restrooms and improve access to ticket counters at Penn
Station in New York City. These eight stations were reported compliant before the
Accessible Stations Development Program (ASDP) was started. According to a senior
operations manager, the ADA management team directed the Engineering department

15The seven stations in California are Auburn, Berkeley, Guadalupe, Lompoc-Surf, San Luis Obispo,
Stockton–San Joaquin Street, and Turlock-Denair. Amtrak has sole ADA responsibility for the station,
platform, and parking lots at these stations.
                                                                                                       10
                              Amtrak Office of Inspector General
          Train Operations and Business Management: Addressing Management
         Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                        Audit Report OIG-A-2014-010, August 4, 2014

to complete facility assessments at all stations. Seven stations in California had not been
previously assessed; therefore, the company conducted new assessments that identified
additional deficiencies that needed to be addressed.

In FY 2013, new construction projects were started at eight other stations.16 About
$7.9 million was spent at these stations for new platforms, station signage, accessible
parking, lighting, and other improvements. Figure 3 shows some of these
improvements.




 These stations are located in Dyer, Indiana; Amsterdam, Fort Ticonderoga, Port Kent, and Whitehall,
16

New York; and Randolph, St. Albans, and Waterbury, Vermont.
                                                                                                11
                             Amtrak Office of Inspector General
         Train Operations and Business Management: Addressing Management
        Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                       Audit Report OIG-A-2014-010, August 4, 2014

   Figure 3. Examples of ADA Improvements Made at Eight Stations in FY 2013




    Source: Amtrak OIG
    Clockwise from top left: New signage at Waterbury, Vermont; accessible ramp at Amsterdam, New
    York; accessible parking, lighting, and station at Fort Ticonderoga, New York; and accessible
    restroom at Amsterdam, New York.

Other ADA Activities Completed or Underway. In addition to the construction
activities, initial planning activities and other ADA-related projects were completed or
underway by the end of FY 2013, including:

       Initial planning activities. The initial steps toward making stations ADA-
        compliant under the ASDP include (1) conducting surveys to document
        property ownership and boundaries, (2) conducting facility accessibility
        assessments to identify work that must be done to make a station ADA-
        compliant, and (3) developing project designs for the work that must be done.
        During FY 2012 and FY 2013, Amtrak completed 176 property surveys,
        71 facility assessments, and 30 project designs.
                                                                                                   12
                              Amtrak Office of Inspector General
          Train Operations and Business Management: Addressing Management
         Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                        Audit Report OIG-A-2014-010, August 4, 2014

        Mobility First. During FY 2012, the Engineering department spent about
         $8.5 million to complete the Mobility First program. The program began in 2009
         by installing wheeled mobility lifts and shelters for the lifts in order to improve
         access to trains by wheeled mobility devices.

        Passenger Information Display System.17 The Marketing and Sales department
         spent approximately $3 million18 on this system, including installing this system
         at three stations—Bloomington-Normal, Illinois; Wilmington, Delaware; and
         Union Station, Washington D.C.—and initiating design work for the station in
         Denver, Colorado. The system provides audio and visual messaging for all
         passengers, including those who are deaf, hearing impaired, visually impaired,
         or blind. The company plans to expand the system nation-wide, having awarded
         contracts for system design, software development, deployment, and operation
         and maintenance.

        Amtrak.com. The Marketing and Sales department began to improve
         Amtrak.com software to give passengers with disabilities better options when
         booking reservations. This project is estimated to cost about $2 million and is
         scheduled to be completed by September 30, 2014.

Inefficient Use of Funds
Notwithstanding the activities and projects completed in FY 2012 and FY 2013, a
significant portion of the ADA funding was inefficiently used, largely as a result of
changes in program priorities.

Program Management Spending on Projects Exceeds Transportation Industry
Averages. More than 46 percent of the nearly $100 million spent on the ADA program
in FY 2012 and FY 2013 was expended on program management activities, as shown in
Table 1. These activities included project oversight provided under contract by a project
management company, construction and project management performed by Amtrak
Engineering staff, legal services, safety training for contractors, and other related
activities.

17The Passenger Information Display System program was initiated under a pilot program in 2009.
18The Passenger Information Display System also received approximately $251,178 in additional funding
outside of the ADA program.
                                                                                                        13
                                 Amtrak Office of Inspector General
             Train Operations and Business Management: Addressing Management
            Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                           Audit Report OIG-A-2014-010, August 4, 2014

        Table 1. Reported ADA Program Expenditures in FY 2012 and FY 2013
                                (dollars in millions)

            Expenditure Category               FY 2012           FY 2013             Total
            ASDP Design                          $11.2             $10.8              $22.0
            ASDP Construction                      0.7              15.2               15.9
                           a
            Mobility First                         8.5               --                 8.5
                                   b
            Other ADA-Related Work                 4.8               2.5                7.3
            Program Management                    21.8              24.5               46.3
            Total                                $47.0             $53.0             $100.0


            Program Management as a
            Percentage of Total Cost               46.5%             46.2%             46.3%
       Source: Amtrak OIG analysis of Amtrak financial data

        Notes: Numbers were rounded.
        a
         These expenditures include construction costs to complete Mobility First projects.
        b
         These expenditures include other ADA-related projects, including Amtrak.com and the Passenger
        Information Display System.

Best project management practices for major public transportation projects suggest that
30 percent of the costs of a transit project are typically spent on program management
activities, according to research sponsored by the U.S. Federal Transit Administration.19
However, ADA program management costs averaged 46 percent of project costs for
FY 2012 through 2013—about $16.3 million higher than they would have been using the
best practices percentage.

The program management costs were high because the Engineering department did not
react quickly enough to changes in the priorities and requirements of the ADA
program. In early 2011, the Engineering department designed an ADA program to
spend about $175 million a year for five years. To help manage the program, the
department awarded a contract in August 2011 to provide project management services,
including project design and oversight of construction projects. Shortly after the award
of this contract, the FY 2012 budget for the ADA program was significantly reduced to
about $50 million a year, but no corresponding adjustments were made to the contract

19Transportation Research Board of the National Academies, Transit Cooperative Research Program,
Estimating Soft Costs for Major Public Transportation Fixed Guideway Projects, Washington D.C., 2010.
                                                                                        14
                            Amtrak Office of Inspector General
        Train Operations and Business Management: Addressing Management
       Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                      Audit Report OIG-A-2014-010, August 4, 2014

until about one year after the budget reduction. At that point, the Engineering
department amended the contract to help reduce program management costs,
according to a senior manager in the Operations department. The manager stated that
Engineering did not immediately revise the contract because the department was
expecting a higher funding level in FY 2013. The department did not want to reduce
staff only to incur additional costs to remobilize its workforce once funding was
received.

The Deputy Chief Engineer for construction stated that the Engineering department
plans to build in-house program management capacity and also will provide more
oversight of and work more closely with individual stations. As a result, the
Engineering department expects to reduce program management costs to about
26 percent of total program costs in FY 2014.

An Undetermined Amount of ADA Funding Spent on State-of-Good-Repair. In
FY 2012 and FY 2013, the ADA program focused on making stations ADA-compliant.
During that time, there was no financial reporting requirement to distinguish between
state-of-good-repair work and ADA work. Thus, we could not readily determine the
precise cost and amount of work that was state-of-good-repair. However, the three
examples below show that some undetermined amount of state-of-good-repair work
was completed with ADA funds:

      Rensselaer, Indiana. In FY 2013, a new station shelter at Rensselaer, Indiana,
       was built for about $1.2 million. The facility accessibility assessment did not
       state that a new shelter was required for ADA compliance. According to the
       ADA program director, the width of the door entrance to the existing shelter did
       not meet ADA requirements (Figure 4, left); however, a new shelter was
       constructed (Figure 4, right). The cost to construct the new shelter and other
       improvements were considered ADA-related and were funded by the ADA
       program.
                                                                                    15
                          Amtrak Office of Inspector General
      Train Operations and Business Management: Addressing Management
     Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                    Audit Report OIG-A-2014-010, August 4, 2014

                Figure 4. Work Completed at Rensselaer, Indiana




                    BEFORE                                    AFTER
    Source: Amtrak, Government Affairs and Corporate Communications

   Dyer, Indiana. In FY 2013, construction began on a new low-level platform, a
    new station shelter (Figure 5, right), new station signage, a new parking lot with
    two accessible parking spaces, and new lighting. Construction costs were
    estimated at approximately $3 million as of March 2014. The facility accessibility
    assessment did not state that a new shelter was required for ADA compliance.
    According to the ADA program director, the width of the door entrance to the
    existing shelter did not meet ADA requirements (Figure 5, left), and the existing
    platform did not have a tactile edge. All of the work is being funded under the
    ADA program.

                   Figure 5. Work in Progress at Dyer, Indiana




                    BEFORE                                    AFTER
    Source: Amtrak, Government Affairs and Corporate Communications
                                                                                          16
                             Amtrak Office of Inspector General
         Train Operations and Business Management: Addressing Management
        Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                       Audit Report OIG-A-2014-010, August 4, 2014

       Niles, Michigan. Amtrak spent approximately $931,000 in FY 2012 ADA funds
        on a new roof for the station in Niles, Michigan. However, no ADA-related work
        was included in the scope of work.

ADA funds were also used for electrical work, landscaping, new lighting, and non-
ADA parking at other stations, but the facility accessibility assessments did not state
that these items were required for ADA compliance.

Spending on Project Designs At Risk of Being Wasted. Approximately $6.5 million
was spent on designs for 54 projects that are not included in FY 2014 or FY 2015
construction plans. For example, nearly $160,000 was spent on a design for the station in
Michigan City, Indiana, which is not included in the FY 2014 or FY 2015 construction
plans. The ADA management team decided to discontinue service at this station rather
than continue with planned upgrades; as a result, the design funds were wasted. When
the program priorities shifted to addressing stations with significant accessibility
deficiencies beginning in FY 2014, designs at 53 other stations were set aside and were
not included in the FY 2014 and FY 2015 construction plans. If the designs are not
ultimately used, an additional $6.3 million is at risk of being wasted.

Revised Program Direction Adopted to Improve System-wide
Accessibility, But Progress Continues to Be Slow
The primary goal of the revised approach for FY 2014, referred to as a “pivot plan,” is to
give priority to stations with significant accessibility barriers for which Amtrak has sole
or shared ADA responsibility. However, only 2 of the 21 construction projects planned
for FY 2014 have been started.

As of March 31, 2014, Amtrak had spent about $13.3 million (27 percent) of the
$50 million FY 2014 ADA budget. About $6.2 million (46 percent) was spent to continue
work at eight stations where construction started in FY 2013. The remaining funds were
spent on FY 2014 projects as follows:

       Two construction projects planned for FY 2014 have started. The Engineering
        department planned to start 21 ADA construction projects in FY 2014. However,
        as of April 2014, only two projects have started—installation of level-boarding
        platforms at Lorton, Virginia, and Sanford, Florida. According to a senior
        manager in the Operations department, the remaining 19 projects have been
        delayed pending the Federal Railroad Administration’s review and approval of
        documentation submitted for environmental and historical property reviews. As
                                                                                                          17
                              Amtrak Office of Inspector General
          Train Operations and Business Management: Addressing Management
         Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                        Audit Report OIG-A-2014-010, August 4, 2014

         of May 2014, Amtrak submitted documentation to the Federal Railroad
         Administration that 14 of the 19 proposed construction projects met the
         requirements of the National Environmental Policy Act and the National
         Historic Preservation Act. The senior manager planned to start awarding
         contracts for these 19 projects in June 2014 with construction starting by
         September 2014.

        Most designs have not started. The Engineering department planned to start
         designs for projects at 61 stations in FY 2014; as of February 2014, only
         14 designs were started. An Operations senior manager said that start dates for
         the remaining designs were delayed because amending the project management
         contract took longer than expected.

        No construction started at stations that are inaccessible to wheeled mobility
         users. Amtrak has sole or shared ADA responsibility for 17 stations where
         passengers who use wheeled mobility devices cannot get on or off the train.20 No
         construction is planned at any of these stations in FY 2014. However, designs are
         underway for projects at four stations, and construction is planned for FY 2015.
         For the timeframe planned for the 17 stations, see Appendix B.

        No progress made in making restrooms accessible. Amtrak has sole or shared
         responsibility for 55 stations with inaccessible restrooms.21 According to the
         FY 2014 plan, construction is planned at 13 of these stations during FY 2014, but,
         as of April 2014, construction had not started at any of them. These projects have
         been delayed pending environmental reviews and the Federal Railroad
         Administration’s approval to proceed, according to an Operations senior
         manager. For the timeframe planned for the 55 stations, see Appendix C.

Other ADA Projects Planned for FY 2014. The Engineering department plans to
complete 51 surveys and 67 facility assessments. Property surveys at all stations where
Amtrak has sole or shared ADA responsibility will be completed during FY 2015,


20 At three additional stations, passengers who use wheeled mobility devices cannot get on or off the
train, but Amtrak has no ADA responsibility for these stations.
21 Four additional stations have inaccessible restrooms, but Amtrak has no ADA responsibility for these

stations.
                                                                                                          18
                                 Amtrak Office of Inspector General
             Train Operations and Business Management: Addressing Management
            Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                           Audit Report OIG-A-2014-010, August 4, 2014

according to the Vice President, Government Affairs and Corporate Communications.
He noted that all facility assessments should be completed during FY 2016.

In addition to completing these activities, a prototype for a setback-level boarding
solution is scheduled to be developed. In July 2012, the President and Chief Executive
Officer established a policy that some form of level boarding would be provided for
stations with more than 7,500 riders a year.22 In October 2013, a $3.2 million contract
was awarded to create a conceptual design for a setback-level boarding solution. For an
illustration of the conceptual design, see Figure 6.




22   Mobile wheeled mobility lifts would still be used at stations with fewer than 7,500 riders a year.
                                                                                          19
                             Amtrak Office of Inspector General
         Train Operations and Business Management: Addressing Management
        Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                       Audit Report OIG-A-2014-010, August 4, 2014

         Figure 6. Conceptual Design for Setback-Level Boarding Solution




Source: Amtrak, Government Affairs and Corporate Communications

The setback-level boarding solution could be installed at the 202 stations that have an
annual ridership of more than 7,500, according to the ADA program director.
                                                                                        20
                             Amtrak Office of Inspector General
         Train Operations and Business Management: Addressing Management
        Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                       Audit Report OIG-A-2014-010, August 4, 2014

CONCLUSIONS AND RECOMMENDATIONS
Over the last two years, the ADA management team has achieved minimal results,
largely because of the lack of an effective program management structure and the
absence of a strategic plan that sets a vision, goals, and objectives, including estimates
of costs and a timeframe for completion. In addition, until recently, organizations
representing the disabled community have had limited interactions with the ADA
management team. If these issues are not addressed, the program is likely to make only
limited progress in the future.

To help improve the effectiveness of ADA program management, we recommend that
the President and Chief Executive Officer take the following actions:

   1. Consider realigning ADA program responsibility to the executive with the
      greatest responsibility for ADA program components, most likely the Vice
      President, Operations.

   2. After organizational responsibility has been decided, direct the lead executive, in
      conjunction with other ADA management team members, to develop a written
      strategic plan for achieving ADA compliance that:

             provides a clear vision and policy for the ADA program
             assigns program and project accountability
             establishes criteria for selecting projects to fund
             identifies project and program cost estimates
             creates annual performance metrics
             sets a target date for all stations to become ADA-compliant

   3. Consider establishing an ADA Advisory Panel that includes members from the
      disabled community to advise the ADA management team on ADA-related
      issues.

MANAGEMENT COMMENTS AND OIG ANALYSIS
In his response to the draft report, the President and Chief Executive Officer agreed
with our recommendations. He stated that the ADA program director will be moved to
the Vice President, Operations department, on or before September 1, 2014, and the
director will have responsibility for the development, budget, and execution of the
Accessible Stations Development Program. In addition, he noted that the company will
                                                                                     21
                            Amtrak Office of Inspector General
        Train Operations and Business Management: Addressing Management
       Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                      Audit Report OIG-A-2014-010, August 4, 2014

develop a written strategic plan for the ADA program that will be in place during the
first quarter of FY 2015. The plan will contain a mission statement, defined roles and
responsibilities, a program organization, the key project management oversight, and a
process for providing accurate and reliable data to measure the success of the program.
Finally, he stated that the company will meet quarterly with the leadership of the
national disability organizations; the first meeting is expected to be held in
September 2014. The promised actions meet the intent of our recommendations. As part
of our recommendation follow-up process, we will monitor and review the company’s
actions to implement our recommendations.

For the complete management response, see Appendix D.
                                                                                     22
                             Amtrak Office of Inspector General
         Train Operations and Business Management: Addressing Management
        Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                       Audit Report OIG-A-2014-010, August 4, 2014

                                     Appendix A

                         SCOPE AND METHODOLOGY
This report provides the results of our follow-up audit to assess the progress in
achieving the ADA program goals and addressing the management control issues
raised in our previous report. We conducted this audit work from July 2013 through
May 2014 in Wilmington, Delaware; Baltimore, Maryland; Amsterdam, Ticonderoga,
and Whitehall, New York; Paoli and Philadelphia, Pennsylvania; Randolph and
Waterbury, Vermont; and Washington D.C.

To assess the progress in achieving the ADA program goals, we compared the number
of stations reported to be ADA-compliant as of September 30, 2013, to the number
reported compliant as of September 30, 2011. We also analyzed funds that Amtrak spent
from FY 2012 through March 2014 on the following:

      facility assessments, project design, construction, and program management
       under its Accessible Station Development Program
      the Passenger Information Display System
      Amtrak.com
      other miscellaneous ADA projects

To determine if significant accessibility deficiencies were being addressed, we
compared the stations in the plan for FY 2014 and FY 2015 to those currently blocked on
Amtrak.com and those with inaccessible restrooms. In addition, we interviewed the
ADA program director and four of the six ADA management team members regarding
plans, timeframes, and budgets for achieving compliance.

To observe the work completed under ASDP, we visited five stations—Amsterdam,
Ticonderoga, Whitehall, Randolph, and Waterbury. We selected these stations to
minimize travel costs and because the ADA work was completed. To obtain an
understanding of the scope of work required to make stations ADA-compliant, we
visited four stations—Paoli, Philadelphia, Baltimore/Washington International Airport,
and Union Station in Washington D.C. In addition, we interviewed the Director of Civil
Rights and an engineer in the Office of Railroad Development at the Federal Railroad
Administration to obtain their perspectives on the effectiveness of Amtrak’s
                                                                                         23
                             Amtrak Office of Inspector General
         Train Operations and Business Management: Addressing Management
        Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                       Audit Report OIG-A-2014-010, August 4, 2014

ADA program. Finally, we met with officials from the U.S. Access Board and National
Disability Rights Network to obtain their views on Amtrak’s ADA program.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Internal Controls
We reviewed the management controls used to implement the ADA program’s strategic
direction and day-to-day activities. This included assessing the program’s
accountability framework and controls established for project oversight—such as the
role of the ADA management team, Engineering department staff, and the ADA
program director.

Computer-Processed Data
We obtained actual expenditures for ADA projects for FY 2012, FY 2013, and through
March of FY 2014 from Amtrak’s Financial Information System. We did not validate the
FY 2012 numbers but relied on them based on an unqualified opinion on Amtrak’s
financial statements from its external auditors. We did not validate the FY 2013 and
FY 2014 numbers because they are un-audited information. However, we compared the
financial data to program documents, and we found these numbers to be sufficient for
our purposes.

Prior Audit Reports
We identified the following Amtrak OIG reports as being relevant to this audit:

      Americans With Disabilities Act: Leadership Needed to Help Ensure That Stations
       Served by Amtrak Are Compliant (109-2010, September 29, 2011)
      Acquisition and Procurement: Gateway Program’s Concrete Casing Project Progressing
       Well; Cost Increases Will Likely Exceed Budget (OIG-A-2014-004, February 11, 2014)
                                                                                                          24
                               Amtrak Office of Inspector General
           Train Operations and Business Management: Addressing Management
          Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                         Audit Report OIG-A-2014-010, August 4, 2014

                                              Appendix B

          STATIONS WHERE PASSENGERS WHO USE A WHEELED
          MOBILITY DEVICE CANNOT GET ON OR OFF THE TRAIN

Station                                FY 13                      Pivot Plan Milestones
                                     Ridership     Survey     Assessment       Design      Construction
              a
Ashland, VA                             28,421      FY 14        FY 14         FY 15           TBD
                             a
Buffalo Exchange St., NY                38,397      FY 14        FY 15          TBD            TBD
                     b
Clifton Forge, VA                        2,750      FY 14        FY 14         FY 15           TBD
                  c
Coatesville, PA                         16,626      FY 14        FY 14          TBD            TBD
         b
Elko, NV                                 9,657      Done         Done          FY 14          FY 15
                           b
Glenwood Springs, CO                    33,113      Done         Done          FY 14          FY 15
                       d
Harpers Ferry, WV                        6,287      FY 14        FY 14         FY 15           TBD
              e
Marshall, TX                            10,555      Done         Done          FY 14          FY 15
                f
Mount Joy, PA                           69,848      FY 15         TBD           TBD            TBD
             g
Newark, DE                              12,971      FY 14        FY 14         FY 15           TBD
          e
Paoli, PA                              175,299      FY 15         TBD          FY 15          FY 15
                   b
Parkesburg, PA                          55,290      Done         Done          FY 15           TBD
                         b
Philadelphia-North,PA                      590      Done         Done          FY 14          FY 15
             h
Westerly, RI                            39,186      Done         FY 14         FY 15           TBD
              a
Windsor, CT                             13,235      FY 14        FY 14         FY 15           TBD
Windsor Locks, CTi                      18,711      Done         Done          FY 14/          TBD
                                                                               FY 15
                             j
Windsor-Mt Aschtney, VT                 1,126     Done            FY 15         TBD            TBD
Source: OIG analysis of Amtrak pivot plan and ridership data

Notes: The shaded stations are not shown as inaccessible on Amtrak.com for people who self-identify as
wheeled mobility users but are considered inaccessible by Government Affairs and Corporate
Communications staff.
TBD means to be determined.
a
  Amtrak is responsible for the platform, and another party is responsible for the station and parking
facility.
b
  Amtrak is responsible for the station, platform, and parking structure.
c
  Amtrak is responsible for the platform and parking facility, and another party is responsible for the
station.
d
  Amtrak shares responsibility for the station, platform, and parking facility.
e
  Amtrak is responsible for the platform and shares responsibility for the station and parking facility.
f
  Amtrak is responsible for the station, platform, and parking structure. The station is being renovated by
the Pennsylvania Department of Transportation.
g
  Amtrak shares responsibility for the platform, and another party is responsible for the station and parking
facility.
h
  Amtrak is responsible for the platform, shares responsibility for the station, and another party is
responsible for the parking facility.
i
  Amtrak is responsible for the station and platform, and another party is responsible for the parking
facility.
j
  Amtrak is responsible for the platform, but the station and parking facility do not exist.
                                                                                                  25
                             Amtrak Office of Inspector General
         Train Operations and Business Management: Addressing Management
        Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                       Audit Report OIG-A-2014-010, August 4, 2014

                                            Appendix C

      STATIONS WHERE RESTROOMS ARE INACCESSIBLE FOR
                PASSENGERS WITH DISABILITIES

                                      FY 13                    Pivot Plan Status
               Station              Ridership   Survey   Assessment      Design    Construction
               a
Albany, OR                             40,208     TBD        TBD         FY 14         TBD
             b
Alpine, TX                              4,921     TBD        TBD         FY 14         TBD
                a
Anniston, Al                            5,385     TBD        TBD         FY 14         TBD
                 c
Barstow, CA                             3,586     TBD        TBD          TBD          TBD
                         d
Birmingham, AL                         48,759     TBD        TBD          TBD          TBD
                    e
Browning, MT                            2,003     TBD        TBD         FY 14         TBD
                       b
Charleston, SC                         82,147    FY 14      FY 14        FY 15         TBD
                            b
Clifton Forge, VA                       2,750    FY 14      FY 14        FY 15         TBD
                     b
Columbus, WI                           16,188     TBD        TBD         FY 14        FY 15
                    a
Corcoran, CA                           31,542     TBD       FY 15         TBD          TBD
                   a
Culpeper, VA                           13,677    FY 15       TBD          TBD          TBD
                          b
Devils Lake, ND                         5,142     TBD        TBD         FY 14        FY 14
             f
Elkhart, IN                            20,080     TBD       FY 14         TBD          TBD
                                b
Fort Edward-Glen Falls, NY              9,453    FY 14   FY 14/FY 15     FY 15         TBD
                           b
Fort Morgan, CO                         3,196     TBD        TBD         FY 14         TBD
                   b
Glasgow, MT                             5,416     TBD        TBD         FY 14        FY 14
               g
Hinton, WV                              8,897     TBD       FY 14         TBD          TBD
                 b
Houston, TX                            21,617     TBD        TBD         FY 14         TBD
                   a
Kankakee, IL                           24,067     TBD        TBD          TBD          TBD
                   b
La Junta, CO                            6,711     TBD        TBD         FY 14         TBD
            h
Lamy, NM                               12,551     TBD        TBD         FY 14         TBD
            b
Libby, MT                               6,490     TBD        TBD         FY 14        FY 14
                    g
Longview, TX                           41,305     TBD        TBD         FY 14         TBD
                a
Macomb, IL                             77,082    FY 14      FY 15         TBD          TBD
            b
Malta, MT                               3,956     TBD        TBD         FY 14        FY 14
                    b
Maysville, KY                           2,411    FY 14      FY 14        FY 15         TBD
                     b
McGregor, TX                            5,209     TBD        TBD         FY 14         TBD
                a
Mineola, TX                             7,213     TBD        TBD          TBD          TBD
            b
Minot, ND                              41,615     TBD        TBD         FY 14         TBD
                              b
Mount Pleasant, IA                     12,613     TBD        TBD         FY 14        FY 15
             a
Mystic, CT                             23,490    FY 15       TBD          TBD          TBD
          i
Paoli, PA                             175,299    FY 15       TBD         FY 15        FY 15
          a
Plano, IL                               6,901     TBD       FY 15         TBD          TBD
                        i
Plattsburgh, NY                        13,405    FY 14      FY 14        FY 15         TBD
               b
Prince, WV                              3,406     TBD        TBD          TBD         FY 14
                  b
Princeton, IL                          36,118    FY 14      FY 15         TBD          TBD
              b
Raton, NM                              15,733     TBD        TBD         FY 14        FY 15
                      b
Red Wing, MN                            9,525     TBD        TBD         FY 14        FY 14
Richmond-Staples Mill Road,           372,592    FY 14      FY 14        FY 15         TBD
    b
VA
                                                                                                             26
                               Amtrak Office of Inspector General
           Train Operations and Business Management: Addressing Management
          Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                         Audit Report OIG-A-2014-010, August 4, 2014

                                   FY 13                         Pivot Plan Status
               Station           Ridership Survey          Assessment      Design             Construction
                      b
  Rochester, NY                    141,576      FY 15          TBD          TBD                   TBD
                     a
  Royal Oak, MI                     37,158       TBD           TBD         FY 14                  TBD
               b
  Rugby, ND                           5,637      TBD           TBD         FY 14                 FY 14
                a
  Salinas, CA                       21,942       TBD          FY 15         TBD                   TBD
                          j
  San Clemente Pier, CA             15,017       TBD           TBD         FY 14                  TBD
                       a
  South Bend, IN                    25,613       TBD          FY 14         TBD                   TBD
                     b
  St. Albans, VT                      3,592      TBD           TBD          TBD                  FY 14
                     b
  St. Cloud, MN                     13,537       TBD           TBD         FY 14                 FY 14
                 b
  Stanley, ND                         9,411      TBD           TBD         FY 14                 FY 14
                   b
  Staunton, VA                        7,733      TBD           TBD          TBD                  FY 14
                  a
  Truckee, CA                         9,855      TBD           TBD          TBD                   TBD
                        b
  Tuscaloosa, AL                    11,598       TBD           TBD         FY 14                 FY 15
                   b
  Williston, ND                     51,076       TBD           TBD         FY 14                 FY 14
                 b
  Winona, MN                        23,507       TBD           TBD         FY 14                 FY 14
                            k
  Winter Park-Fraser, CO              7,250     FY 15          TBD          TBD                   TBD
             j
  Yuma, AZ                            3,891      TBD           TBD         FY 15                  TBD
Source: Amtrak OIG Analysis of Amtrak pivot plan and ridership data

Notes: TBD means to be determined.
a
  Amtrak is responsible for the platform, and another party is responsible for the station and parking
facility.
b
  Amtrak is responsible for the station, platform, and parking structure.
c
  Amtrak is responsible for the platform, another party is responsible for the parking facility, and there is
no station.
d
  Amtrak is responsible for the station and platform, and another party is responsible for the parking
facility.
e
  Amtrak is responsible for the platform and parking facility, and there is no station.
f
  Amtrak is responsible for the platform, shares responsibility for the station, and another party is
responsible for the parking facility.
g
  Amtrak is responsible for the platform and parking facility, and another party is responsible for the
station.
h
  Amtrak is responsible for the parking facility, shares responsibility for the platform, and another party is
responsible for the station.
i
  Amtrak is responsible for the platform and shares responsibility for the station and parking facility.
j
  Amtrak is responsible for the platform; the station and parking facility do not exist.
k
  Amtrak is responsible for the platform, another party is responsible for the station, and there is no
parking facility.
                                                                         27
                     Amtrak Office of Inspector General
 Train Operations and Business Management: Addressing Management
Weaknesses Is Key to Enhancing the Americans with Disabilities Program
               Audit Report OIG-A-2014-010, August 4, 2014

                            Appendix D

      COMMENTS FROM AMTRAK’S MANAGEMENT
                                                                         28
                     Amtrak Office of Inspector General
 Train Operations and Business Management: Addressing Management
Weaknesses Is Key to Enhancing the Americans with Disabilities Program
               Audit Report OIG-A-2014-010, August 4, 2014
                                                                                29
                            Amtrak Office of Inspector General
        Train Operations and Business Management: Addressing Management
       Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                      Audit Report OIG-A-2014-010, August 4, 2014

                                    Appendix E

                               ABBREVIATIONS
ADA         Americans with Disabilities Act

ASDP        Accessible Stations Development Program

FY          Fiscal Year

OIG         Office of Inspector General
                                                                                30
                            Amtrak Office of Inspector General
        Train Operations and Business Management: Addressing Management
       Weaknesses Is Key to Enhancing the Americans with Disabilities Program
                      Audit Report OIG-A-2014-010, August 4, 2014

                                    Appendix F

                              OIG TEAM MEMBERS
David R. Warren, Assistant Inspector General, Audits

Michael Kennedy, Senior Director

Dorian Herring, Auditor-in-Charge

David P. Bixler, Contractor

Jason Fong, Contractor
            OIG MISSION AND CONTACT INFORMATION

Amtrak OIG’s Mission         The Amtrak OIG’s mission is to provide
                             independent, objective oversight of Amtrak’s
                             programs and operations through audits,
                             inspections, evaluations, and investigations focused
                             on recommending improvements to Amtrak’s
                             economy, efficiency, and effectiveness; preventing
                             and detecting fraud, waste, and abuse; and
                             providing Congress, Amtrak management, and
                             Amtrak’s Board of Directors with timely information
                             about problems and deficiencies relating to Amtrak’s
                             programs and operations.




Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony
To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                             Web:      www.amtrakoig.gov/hotline
                             Phone:    800-468-5469

Point of Contact             David R. Warren
                             Assistant Inspector General, Audits

                             Mail:     Amtrak OIG
                                       10 G Street NE, 3W-300
                                       Washington D.C., 20002

                             Phone:    202-906-4600
                             E-mail:   David.Warren@amtrakoig.gov
